          COMPLIANCE WITH PROCUREMENT LAWS
         IN PURCHASING FREE WEIGHTS AND OTHER
              STRENGTH BUILDING EQUIPMENT


Report No. D-2001-028               December 27, 2000



             Office of the Inspector General
                 Department of Defense
 Additional Copies

  To obtain additional copies of this report, visit the Inspector General, DoD, Home
  Page at: www.dodig.osd.mil/aud/reports or contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                     OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General, Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AFB                  Air Force Base
DCADS                Defense Contract Action Data System
DFARS                Defense Federal Acquisition Regulation Supplement
FAR                  Federal Acquisition Regulation
FSC                  Federal Supply Class
FSS                  Federal Supply Schedule
GSA                  General Services Administration
                            Office of the Inspector General, DoD
Report No. D-2001-028
   (Project No. D1999CH-0090)                                        December 27, 2000

           Compliance with Procurement Laws in Purchasing Free
             Weights and Other Strength Building Equipment

                                Executive Summary

Introduction. This report addresses the contracting practices military organizations used
to procure free weights and other strength building equipment for use at Defense
installations in the U.S. (including its territories and possessions). We conducted the
audit in response to section 819 of Public Law 106-65, “National Defense Authorization
Act for FY 2000.” Section 819 of Public Law 106-65 requires the Inspector General,
DoD, to conduct an audit of procurements of free weights and other strength building
equipment during the period April 1, 1998, through March 31, 2000.

Objectives. The overall audit objective was to determine whether contracting officers
complied with the Buy American Act and other procurement laws and regulations when
procuring free weights and other strength building equipment. We also reviewed the
adequacy of the management control program as it related to the primary audit objective.

Results. DoD organizations procured free weights and other strength building equipment
using procurement methods that generally complied with the Buy American Act and
other laws and regulations. Of 90 procurements reviewed, with a total value of about
$1.8 million, only 2 procurements and 1 equipment exchange, totaling $53,131, did not
comply with the Buy American Act. The three exceptions resulted in the acquisition of
free weights produced in China, and potential violations of the Antideficiency Act. The
noncomplying procurements, which ranged in individual values from $16,714 to $19,508,
occurred at one Army location and two Air Force locations.

Summary of Recommendations. We recommend that the General Counsel, DoD,
establish the DoD position regarding the applicability of the Antideficiency Act to
violations of the Buy American Act. We also recommend that the Assistant Secretary of
the Army and the Assistant Secretary of the Air Force (Financial Management and
Comptroller) initiate investigations of potential Antideficiency Act and Buy American
Act violations. The Assistant Secretaries should also provide a copy of the preliminary
review reports and the final formal investigation to the Inspector General, DoD.

Management Comments. The Deputy Assistant Secretary of the Army (Financial
Operations) and the Deputy Assistant Secretary of the Air Force (Financial Management)
did not concur with the recommendation to initiate investigations of potential violations
of potential Antideficiency Act and Buy American Act violations. The Army stated that
although violations of the Buy American Act may have occurred, the General Counsel of
the Army determined, during its review of Inspector General, DoD, Report No. 99-023,
“Procurement of Military Clothing and Related Items by
Military Organizations,” October 29, 1999, that Buy American Act violations do not give
rise to Antideficiency Act violations. Therefore, the Army would not initiate
investigations of the potential violations.

The Air Force stated that it also conducted a legal review of the October 1999 Inspector
General, DoD, audit report and concluded that Buy American Act restrictions, which
ordinarily apply to the purchase of these commercial items, were effectively waived
under authority granted by Congress in the Federal Acquisition Streamlining Act,
41 United States Code §430(a), in Defense Federal Acquisition Regulation Supplement
212.503. As a result, the purchase of free weights by a Wright Patterson Air Force Base
contracting officer was excepted from domestic content restrictions, and appropriated
funds used to procure foreign-made weights were not obligated or expended in violation
of statutory limitations. The Air Force also stated that the acquisition of free weights at
Langley Air Force Base, through an exchange of equipment, did not violate the
Antideficiency Act.

Audit Response. We do not agree with the Army and Air Force positions. We added
the recommendation to the General Counsel, DoD, to establish the DoD position
regarding the applicability of the Antideficiency Act to violations of the Buy American
Act, because neither the Army nor the Air Force requested an interpretation.

Additional Comments Required. We request that the General Counsel, DoD, provide
the DoD position by January 31, 2001, and that the Army and Air Force provide
comments by March 1, 2001. A discussion of the management comments is in the
Finding section of the report, and the complete text is in the Management Comments
section.




                                             ii
Table of Contents

Executive Summary                                                             i


Introduction
    Background                                                               1
    Objectives                                                               2

Finding
     Compliance with Procurement Laws in Purchasing Free Weights and Other
     Strength Building Equipment                                             3

Appendixes
     A. Audit Process                                                         9
          Scope                                                               9
         Methodology                                                          9
         Management Control Program Review                                   10
     B. Compliance with Procurement Laws in Purchasing Free Weights
           and Other Strength Building Equipment                             12
     C. Qualifying Countries Listed in DFARS 225.872                         16
     D. Report Distribution                                                  17


Management Comments
     Department of the Army                                                  19
     Department of the Air Force                                             21
Background
    National Defense Authorization Act for FY 2000. We conducted the audit in
    response to Section 819 of Public Law 106-65, “National Defense Authorization
    Bill for Fiscal Year 2000,” that requires the Inspector General, DoD, conduct an
    audit of military organizations to determine whether contracting officers complied
    with the Buy American Act in procuring free weights and other strength building
    equipment from April 1, 1998, to March 31, 2000.

    The Buy American Act. The Buy American Act, enacted March 3, 1933,
    restricts foreign access to United States Government procurements by giving
    preference to domestically produced or manufactured products. The act states in
    part:
               Notwithstanding any other provision of law, and unless the head of the
               Federal Agency concerned shall determine it to be inconsistent with the
               public interest, or the cost to be unreasonable, only such
               unmanufactured articles, materials, and supplies as have been mined or
               produced in the United States, and only such manufactured articles,
               materials, and supplies as have been manufactured in the United States
               substantially all from articles, materials, or supplies mined, produced,
               or manufactured, as the case may be, in the United States, shall be
               acquired for public use.

    The Federal Acquisition Regulation (FAR), part 25, “Foreign Acquisition,” and
    Defense Federal Acquisition Regulation Supplement (DFARS) part 225, “Foreign
    Acquisition,” contain policies and procedures for implementing the Buy
    American Act and other laws and regulations pertaining to the acquisition of
    supplies, services, construction materials, and construction. In general, the FAR
    requires that only domestic end products be acquired for government use in the
    United States on procurements that exceed a $2,500 purchase ceiling. DoD has
    determined that it is inconsistent with the public interest to apply the restrictions
    of the Buy American Act and the Balance of Payments Program to acquisitions of
    certain supplies that are produced in the 17 foreign countries where
    memorandums of understanding or other international agreements exist.
    Individual acquisitions from four other countries may, on a purchase-by-purchase
    basis, be exempted from the Buy American Act and the Balance of Payments
    Program. The 21 qualifying countries are identified in DFARS 225.872,
    “Contracting with Qualifying Country Sources.” To comply with the Buy
    American Act, when procuring from nonqualifying countries, contracting officers
    must add 50 percent to the price of end-products when evaluating offers with
    nonqualifying end-products against domestic end-products.

    Contract Provisions. The DFARS cites several references for incorporating Buy
    American Act provisions into contracts.

           •   DFARS 213.507, “Provisions and Clauses,” lists FAR 52.225-3, “Buy
               American Act-Supplies,” as a usable applicable clause in purchase
               orders and blanket purchase agreements.
                                             1
             •   DFARS 225.109, “Solicitation Provisions and Contract Clauses,”
                 requires the use of DFARS 252.225-7001, “Buy American Act and
                 Balance of Payments Program,” instead of FAR 52.225-3.

             •   DFARS 225.109(a) and (d), 225.105, “Evaluating Offers,” and
                 225.102(b)(i), “Policy,” require that contracting officers making
                 procurements in accordance with the Buy American Act must include
                 the following clauses:

             •   DFARS 252.225-7000, “Buy American Act - Balance of Payments
                 Program Certificate,” in solicitations for contracts where supplies are
                 required. DFARS 252.225-7000 requires offerors to certify each end
                 product, as domestic, qualifying country, or nonqualifying country.

             •   DFARS 252.225-7001, “Buy American Act and Balance of Payments
                 Program,” in solicitations and contracts where supplies are required.
                 This clause implements the Buy American Act except for end products
                 which are qualifying country end products.

     Procurements of Free Weights and Other Strength Building Equipment by
     Military Organizations. The Defense Contract Action Data System (DCADS)
     showed that between April 1, 1998, and March 31, 2000, 124 military
     organizations awarded 333 contract actions valued at about $19.5 million for
     recreational and athletic equipment (Federal Supply Classes 7810 and 7830). We
     reviewed 182 contract actions over $25,000 and determined that 55 actions
     pertained to free weights and other strength building equipment at 27 military
     organizations. We identified 35 actions and 1 equipment exchange, values
     ranging between $2,500 and $25,000, for free weights and other strength building
     equipment at 6 military organizations. We identified the purchases of free
     weights and other strength building equipment between $2,500 and $25,000,
     which were not contained in the DCADS, by contacting the military
     organizations. The 90 contract actions for free weights and other strength
     building equipment reviewed are listed in Appendix B.

Objectives
     The primary objective was to determine whether contracting officers complied
     with the Buy American Act and other procurement laws and regulations. See
     Appendix A for a discussion of the audit scope and methodology and a review of
     the management control program.




                                           2
           Compliance with Procurement Laws in
           Purchasing Free Weights and Other
           Strength Building Equipment
           DoD organizations generally complied with the Buy American Act and
           other procurement laws and regulations in obtaining free weights and
           other strength building equipment. Of 90 procurements reviewed, valued
           at about $1.83 million, only 2 procurements and 1 equipment exchange
           valued at $53,131, did not comply with the Buy American Act. The three
           actions resulted in potential violations of the Antideficiency Act. The
           noncomplying procurements, which ranged in individual values from
           $16,714 to $19,508, occurred at one Army location and two Air Force
           locations. Two of the three organizations ordered the free weights from
           Federal Supply Schedule contractors and were provided free weights that
           were produced in China, a nonqualifying country. The third organization
           exchanged excess gym equipment for free weights valued at $16,909 that
           were produced in China.

Equipment Definitions and Suppliers
    Free Weights. Free weights are dumbbells, barbells, curl bars, and weight plates
    that are placed on crossbars and are designed to be lifted for strength training or
    athletic competition.

    Strength Building Equipment. Strength building equipment includes, but is not
    limited to, abdominal, torso, back extension, and leg press machines. Strength
    building equipment does not include aerobic or cardiovascular equipment such as
    treadmills, bicycles, steppers, and cross trainers.

    Manufacturers of Free Weights and Other Strength Building Equipment.
    Table 1 lists the eight primary manufacturers of strength building equipment sold
    in the United States. Only one company, Ivanko, manufactures its equipment in
    China. Some of the strength building equipment being offered for sale by several
    manufacturers has component parts that were manufactured in China. However,
    the total value of those component parts was less than 50 percent of the total value
    of the equipment. According to DFARS 252.225-7001(2)(ii), an end product is
    considered manufactured in the U.S. if the cost of all its component parts that are
    manufactured in the U.S. exceeds 50 percent of the total cost of all the component
    parts of the equipment.




                                         3
               Table 1. Primary Manufacturers of Fitness Equipment

                                             U.S.
      Company                             Manufacturer    Equipment Types
      Body Masters Sports Industries         Yes          Strength

      Cybex International, Inc.                Yes        Free weights/strength

      Hammer Strength                          Yes        Free weights/strength

      Icarian Fitness Equipment                Yes        Free weights/strength

      Ivanko                                   No         Free weights
      Life Fitness                             Yes        Strength/other

      Nautilus International, Inc.             Yes        Strength/other

      York Barbell                             Yes        Free weights



Role of the General Services Administration and the Federal Supply Schedule. The
primary procurement source for free weights and other strength building equipment by
the military is the General Services Administration (GSA) Federal Supply Schedule
(FSS). Section 201 of the Federal Property and Administrative Services Act of 1949, as
amended (40 U.S.C. 471 et seq.), authorizes the Administrator of General Services to
procure and supply personal property and nonpersonal services. GSA uses the FSS to
supply millions of commercial items ranging from paper to automobiles. Excluding
Ivanko, GSA has FSS contracts with each of the manufacturers of fitness equipment
listed in Table 1.

Procurements Subject to the Buy American Act. We identified 90 procurements that
were subject to the Buy American Act (See Appendix B). Eighty-seven of the
procurements complied with the Buy American Act. Two procurements and one
equipment exchange, each valued between $2,500 and $25,000, did not comply with the
Buy American Act because the free weights acquired were manufactured in China, a
nonqualifying country.

Contracting officials for the two procurements that did not comply with the Buy
American Act were familiar with the Act and the guidance in the FAR and DFARS, but
did not include DFARS clauses in the orders, and did not determine where the weights
were manufactured. They believed that because the free weights were purchased through
delivery orders under a FSS contract, GSA was responsible for including the applicable
provisions and clauses.




                                           4
Contracting officials at the organization where the exchange occurred were unaware that
the exchange had taken place. The two procurements and the exchange are shown in
Table 2.



       Table 2. Procurements That Did Not Comply With the Buy American Act

       Organization                          Contract Number               Value

       Fort Sam Houston,                     DADA10-98-F-1217              $16,714
              San Antonio, Texas

       Langley Air Force Base,               N/A*                           16,909
             Hampton, Virginia
       Wright-Patterson Air Force Base,         F33601-99-F-A946            19,508
              Dayton, Ohio

         Total                                                             $53,131

           * No contract exists. The Langley AFB Fitness Center acquired
           free weights that were manufactured in China by trading in obsolete gym
           equipment.


Fort Sam Houston, San Antonio, Texas. Contracting personnel at Fort Sam Houston,
using GSA FSS contract GS07F9211G, issued purchase order DADA10-98-F-1217 on
September 26, 1998, to Cybex International for free weights. Four items were ordered--
dumbbells and olympic plates--at a price of $16,714. The FSS identifies the authorized
styles and prices of dumbbells and olympic plates for purchase, but rubberized weights
were listed without reference to where they were manufactured. The items delivered by
Cybex were manufactured in China by Ivanko. The purchase of free weights made in
China occurred because the contracting officer selected rubberized weights and
authorized the purchase without determining where the free weights were manufactured.

Langley Air Force Base, Hampton, Virginia. Officials at the Langley AFB Fitness
Center acquired Ivanko weights by exchanging obsolete gym equipment manufactured in
China and valued at $16,909. The exchange was subject to the Buy American Act
because it was consistent with 41 U.S.C. 10a, which covers equipment “acquired for
public use.” Fitness Center officials did not contact the Langley AFB contracting office
prior to exchanging the equipment.

Wright-Patterson Air Force Base, Dayton, Ohio. Contracting personnel at
Wright-Patterson AFB, using GSA FSS contract GS07F9211G, issued purchase order
F33601-99-F-A946 on January 5, 2000, to procure free weights from Cybex
International. The order was for seven free weight items with a total price of $19,508.
The order did not comply with the Buy American Act because the items were
manufactured in China.



                                            5
  Free Weights Provided by Cybex International, Inc. The free weights provided by
  Cybex to the fitness centers at Fort Sam Houston and Wright-Patterson AFB were
  labeled “Made in China” and manufactured for Cybex by Ivanko. A GSA
  representative responsible for the Federal Supply Class (FSC) that includes free
  weights stated that, as of January 2000, according to Cybex officials, Cybex ceased
  supplying Ivanko free weights in January 2000. Cybex now contracts with GP
  Industries to supply free weights. With the exception of only a few specialty items,
  GP Industries’ free weights were manufactured in the U.S.

Potential Antideficiency Act Violations
  The noncompliance with the Buy American Act on three contracts may have resulted
  in potential violations of the Antideficiency Act (31 U.S.C. 1341 [a][1][A]). These
  potential violations occurred because Public Law 105-262, Section 8053(a) and
  Public Law 105-56, Section 8059(a), the Department of Defense Appropriation Acts
  for FYs 1999 and 1998, respectively, were applicable to the procurements that did not
  comply with the Buy American Act. The laws state in part: “None of the funds
  appropriated in this Act may be expended by an entity of the Department of Defense
  unless the entity, in expending the funds, complies with Buy American Act . . . .”

  The Antideficiency Act states in part: (a)(1) An officer or employee of the United
  States Government . . . may not- - (A) make or authorize an expenditure or
  obligation exceeding an amount available in an appropriation or fund for the
  expenditure or obligation; . . . .

  The Department of Defense Financial Management Regulation (DoD 7000.14R),
  volume 14, “Administrative Control of Funds and Antideficiency Act Violations,”
  states in part: “. . . violations of 31 U.S.C. 1341 (a)(1)(A) may occur when statutory
  limitations on the purpose for which an appropriation or fund may be used are
  violated.”

  DoD Directive 7200.1, “Administrative Control of Appropriations,” May 4, 1995,
  regulates fund control for all DoD Components. The directive requires DoD
  components to establish positive control and maintain adequate systems of accounting
  for appropriations and other available funds. The directive further requires the heads
  of the DoD Components to investigate and report on apparent and potential
  Antideficiency Act violations.

Conclusion
  DoD organizations generally procured free weights and other strength building
  equipment that complied with the Buy American Act and other procurement laws
  and regulations. However, the Army and Air Force should investigate the
  procurements listed in Table 2 of this report, for potential Antideficiency Act
  violations arising from using funds to procure free weights that did not comply with
  the Buy American Act. If any violations of the Antideficiency Act occurred, the
  Army and Air Force should comply with reporting requirements in DoD



                                           6
    Directive 7200.1, “Administrative Control of Appropriations,” May 4, 1995, and
    the DoD Financial Management Regulation (DoD 7000.14R), volume 14,
    “Administrative Control of Funds and Antideficiency Act Violations,” August
    1995.

Recommendations, Management Comments, and Audit Response
    1. We recommend that the General Counsel, DoD, establish the DoD
    position regarding the applicability of the Antideficiency Act to violations of
    the Buy American Act.

    2. If the DoD position is that the Antideficiency Act is applicable to Buy
    American Act violations, we recommend that the Assistant Secretary of the
    Army and the Assistant Secretary of the Air Force (Financial Management
    and Comptroller) initiate investigations of the procurements of free weights
    that do not comply with the Buy American Act. If any violations of the
    Antideficiency Act occurred, comply with the reporting requirements in DoD
    Financial Management Regulation (DoD 7000.14R), volume 14,
    “Administrative Control of Funds and Antideficiency Act violations.” The
    Assistant Secretaries should also provide a copy of preliminary review
    reports and the final formal investigation reports to the Inspector General,
    DoD.

    Management Comments. The Army and Air Force nonconcurred. The Army
    stated that although violations of the Buy American Act may have occurred, the
    General Counsel of the Army determined, during Inspector General, DoD, Audit
    Report No. 99-023, “Procurement of Military Clothing and Related Items by
    Military Organizations,” October 29, 2000, that Buy American Act violations do
    not give rise to Antideficiency Act violations. Therefore, the Army would not
    initiate investigations of the potential violations.

    The Air Force stated that it also conducted a legal review of a prior Inspector
    General, DoD, audit report and concluded that Buy American Act restrictions that
    ordinarily apply to the purchase of these commercial items were effectively
    waived under authority granted by Congress in the Federal Acquisition
    Streamlining Act, 41 U.S.C. §430(a), in Defense Federal Acquisition Regulation
    Supplement 212.503. As a result, the purchase of free weights by a Wright
    Patterson Air Force Base contracting officer was excepted from domestic content
    restrictions, and appropriated funds used to procure foreign-made weights were
    not obligated or expended in violation of statutory limitations. Accordingly, the
    contracting officer did not violate the Antideficiency Act. The Air Force also
    concluded that the acquisition of free weights at Langley Air Force Base, through
    an exchange of equipment, did not result in an obligation or expenditure of
    appropriated funds. As a result, the Air Force also determined that the
    Antideficiency Act was not violated by this transaction.




                                        7
Audit Response. We do not agree with the Army and Air Force positions. Neither the
Army nor the Air Force requested interpretation from the General Counsel, DoD. We
added an additional recommendation to the General Counsel to establish the DoD
position regarding the applicability of the Antideficiency Act to violations of the Buy
American Act. We request that the Army and Air Force provide additional comments on
the recommendation, as appropriate, based on the DoD position.




                                           8
Appendix A. Audit Process
Scope
    The National Defense Authorization Act for FY 2000 requires an audit of FYs
    1998 and 1999 procurements of free weights and strength building equipment at
    military installations. We conducted the audit to determine the extent to which
    the installations procured free weights and other strength building equipment in
    violation of the Buy American Act.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the Defense Contract Management high-risk area.

Methodology
    We reviewed the Buy American Act, the FAR, and the DFARS implementing
    guidance. We used those documents as criteria for determining whether
    contracting officers complied with the Buy American Act when they procured
    free weights and strength building equipment. We reviewed the contracts for FYs
    1998 and 1999 procurements of free weights and other strength building
    equipment. We interviewed contractors and reviewed contractor catalogues to
    determine where the items procured were manufactured. We discussed with
    contracting officers the process for procuring free weights and other strength
    building equipment and for ensuring compliance with the Buy American Act.

    Use of Computer-Processed Data. To achieve the audit objective, we relied on
    computer-processed data from the Defense Contract Action Data System to
    identify contract actions over $25,000. We assessed the reliability of the data in
    the system concerning the identification of contract numbers, award dates, and
    dollar amounts of the transactions. We determined that the contract numbers and
    dollar amounts in the database generally agreed with the identification and dollar
    amounts on the contract documents. We did not find errors that would preclude
    use of computer processed data to meet the audit objectives or that would change
    the conclusion in the report.

    Contract Actions for Recreational and Athletic Equipment. The Defense
    Contract Action Data System showed that 124 military organizations executed
    333 contract actions valued at $25,000 or more for items in Federal Supply Class
    (FSC) 7810 and 7830 from April 1, 1998, to March 31, 2000. The total value of
    the 333 contracts was $19,500,848. The types of recreation and athletic
    equipment covered by two FSCs included:

           •   FSC 7810 – Recreational and Athletic Equipment. Includes athletic
               and sporting equipment.

           •   FSC 7830 – Recreational and Gymnastic Equipment. Includes
               recreational and gymnastic equipment.


                                         9
    There was a wide range of equipment procured under both FSCs. The types of
    items procured under both FSCs included fitness equipment such as aerobic and
    cardiovascular equipment, free weights or other strength building equipment,
    playground equipment, sports and game equipment (basketball, volleyball, etc.),
    fishing equipment, and boats.

    Contract Actions for Free Weights and Strength Building Equipment. Of the
    333 contract actions we determined that 55 contract actions were for free weights
    and other strength building equipment subject to the Buy American Act. The
    remaining 278 contract actions were either for items other than the free weights
    and strength building equipment, or were contract actions by overseas offices and
    not subject to the Buy American Act. We identified an additional 35 contract
    actions, valued between $2,500 and $25,000, that were not included in the
    DCADS, including one equipment exchange by contacting purchasing offices and
    fitness centers at Military organizations.

    Audit Type, Dates, and Standards. We conducted this program audit from
    August 1999 through March 2000 in accordance with auditing standards issued by
    the Comptroller General of the United States, as implemented by the Inspector
    General, DoD. Accordingly, we included a review of management controls
    considered necessary. We relied on computer-processed data to support our
    finding.

    Contacts During the Audit. We visited or contacted contractors, DoD
    purchasing offices, fitness centers, the GSA, and contractors supplying
    recreational and athletic equipment to DoD. Further details are available on
    request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD require DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended to evaluate the
    adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the management controls over procuring free weights and other
    strength building equipment at 23 DoD contracting offices. Specifically, we
    examined management controls over compliance with the Buy American Act
    when procuring free weights and other strength building equipment. Because we
    did not identify a material weakness, we did not assess management’s self-
    evaluation.

    Adequacy of Management Controls. The management controls were adequate
    as they applied to the overall objective.



                                        10
Prior Coverage
    There have been no prior audits of compliance with the Buy American Act when
    procuring free weights and other strength building equipment during the past 5
    years.




                                      11
Appendix B. Compliance with Procurement
            Laws in Purchasing Free Weights
            and Other Strength Building
            Equipment
                                                                   Free       Strength    Contract
       Installation             GSA No.       Contract No.       Weights    Equipment       Value
Army   Fort Belvoir             GS07F9211G    SP4700-99-F-0551                $ 45,600    $ 45,600

       Fort Benning             GS07F9211G    DABT10-00-F-0026    $ 6,417        46,084      66,642

       Fort Bliss                             DABT51-98-F-0343                   33,976      33,976

       Fort Bragg               GS07F9380G    DAKF40-98-F-0290                   67,064     103,389

                                GS07F9380G    DAKF40-98-F-0758                   63,460     142,912

                                GS07F9648G    DAKF40-99-F-0146                   56,550      59,107

       Fort Carson              GS07F9211G    DAKF06-99-F-0103                   52,368      52,368

                                GS07F9014G    DAKF06-99-F-0170                    5,991       6,986

       Fort Riley               GS07F9211G    DAKF19-99-F-0110      2,480        17,340      34,902

       Fort Sam Houston         GS07F9211G    DADA10-98-F-1179                   26,960      30,480

                                GS07F9211G    DADA10-98-F-1216                   37,800      42,156

                                GS07F9211G    DADA10-98-F-1217     16,714                    16,714

       Fort Sill                GS07F9211G    DABT39-99-F-0105      5,980        56,265      72,476

       Fort Stewart             GS07F9394G    DAKF10-98-F-0126                   27,460      44,747

                                              DAKF10-98-P-0265      2,875         1,250      10,025

                                              DAKF10-98-P-0281                    1,200       4,023

       Red River Army Depot     GS07F9240G    DAAC79-98-F-0066       612          6,400      33,923

       USPFO for Arkansas       GS07F9648G    DAHA03-99-F-0018                   28,529      31,382

       USPFO for Mississippi    GS07F9211G    DAHA22-98-F-0126                   26,848      47,070

       USPFO for Oregon         GS07F9211G    DAHA35-98-F-F447                   28,456      41,972

                                GS07F9380G    DAHA35-99-F-A403                    3,872      27,702

Navy   FISC – Jacksonville                    N68836-98-M-3069                   32,256      35,000

       FISC - San Diego                       N00244-99-F-D645                   19,964      23,357

                                GS07F9315G    N00244-99-F-D645                   10,396      23,359

                                              N00244-99-M-4064                   12,505      25,905

       Naval Support Activity   GS07F9380G    N00639-98-F-A050     14,020        21,630      84,426
       Memphis

                                GS07F9211G    N00639-98-F-A055                   26,336      27,638

                                GS07F9380G    N00639-98-F-A064                   22,984      46,966


                                             12
                                                   Free       Strength    Contract
Installation   GSA No.       Contract No.        Weights    Equipment       Value
               GS07F9211G    N00639-98-F-A136       4,364        38,736      81,777

               GS07F9211G    N00639-98-F-A145       5,052          416       14,022

               GS07F9380G    N00639-98-F-A146                    79,792     145,606

               GS07F9211G    N00639-99-F-0001                    16,848      24,369

               GS07F9211G    N00639-99-F-A025                    20,480      20,480

               GS07F9380G    N00639-99-F-A058                     4,342      88,590

               GS07F9380G    N00639-99-F-A059                     6,513     117,357

               GS07F9339G    N00639-99-F-A060        621                      2,875

               GS07F9380G    N00639-99-F-A063                     2,171      78,148

               GS07F9648G    N00639-99-F-A066                     3,165       8,448

               GS07F9380G    N00639-99-F-A067      21,300        33,908     124,878

               GS07F9394G    N00639-99-F-A069                    11,672      14,904

               GS07F9339G    N00639-99-F-A073       5,148                     6,073

               GS07F9380G    N00639-99-F-A074                    40,148      40,148

               GS07F9648G    N00639-99-F-A078                     4,119      10,641

               GS07F9016G    N00639-99-F-A081       3,251          743        6,011

               GS07F9339G    N00639-99-F-A089        855                     17,606

               GS07F9298G    N00639-99-F-A094        479                      3,940

               GS07F9380G    N00639-99-F-A095                    27,321     421,501

               GS07F9339G    N00639-99-F-A096       1,584                     3,674

               GS07F9648G    N00639-99-F-A106                     3,897       6,310

               GS07F9339G    N00639-99-F-A109       1,210                    19,459

               GS07F9648G    N00639-99-F-A110                     6,550      13,550

               GS07F9239G    N00639-99-F-A121                      473       10,645

               GS07F9211G    N00639-99-F-A122                    18,717      19,167

               GS07F9380G    N00639-99-F-A123                     2,171      41,083

               GS07F9339G    N00639-99-F-A128       2,110                    18,817

               GS07F9380G    NAFMEM-98-F-0035                    11,110      11,310

               GS07F9211G    NAFMEM-98-F-0036                      552         552

               GS07F9380G    NAFMEM-98-F-0039                    22,321      23,321

               GS07F9211G    N00639-00-F-A016                    37,674      37,674

               GS07F9211G    N000639-99-F-A199      5,800         2,652       8,452




                            13
                                                                           Free       Strength    Contract
                Installation           GSA No.        Contract No.       Weights    Equipment       Value
                U.S. Naval Station –   GS07F9380G     N00189-98-F-A924      5,025        20,090      30,515
                Norfolk

                                       GS07F9380G     N00189-98-F-B010      1,435        12,182      25,949

                                       GS07F9380G     N00189-98-F-B090                   10,500      76,537

                                       GS07F9380G     N00189-99-F-A193                    1,772      33,146

                                       GS07F9239G     N00189-99-F-A393                   42,975      42,975

                                       GS07F9648G     N00189-99-F-A429                   29,585      33,490

Air Force       Columbus AFB           GS07F9211G     F22608-00-F-0018       356         45,184      49,334

                Davis-Monthan AFB      GS07F9648G     F02601-98-F-0032                   25,320      29,234

                                       GS07F9380G     F02601-98-F-A058                   33,633      33,633

                Dyess AFB              GS07F9211G     F41652-98-F-A068                   30,400      30,400

                Edwards AFB            GS07F9211G     F04700-99-F-7342                   47,590      47,590

                Hickam AFB             GS07F9211G     F64605-99-F-A101       210         49,650      50,901

                Hill AFB               GS07F9380G     F42650-98-F-A010                   60,114     144,681

                Kelly AFB                             F41650-99-M-5006                    4,392       4,392

                Lackland AFB           GS07F9315G     F41636-98-F-0406                    2,576       2,576

                                       GS07F9315G     F41636-98-F-0474                   30,744      30,744

                Langley AFB                  *                 *           16,909                    16,909

                Luke AFB               GS07F9380G     F02604-99-F-A019                    2,100      24,298

                                       GS07F9315G     F02604-99-F-A059                    4,472       5,048

                                                      F02604-99-P-0019                    6,686       6,760

                                                      F02604-99-P-0096       180           855        4,655

                Maxwell AFB            GS07F9211G     F01600-99-F-A135      7,541        49,722      97,944

                Offutt AFB             GS07F9211G     F25600-99-F-A100                   39,253      39,253

                Sheppard AFB           GS07F9315G     F41612-98-F-A069                   70,085      88,545
                *
                                       GS07F9648G     F41612-98-F-A263                   23,673      25,203

                Travis AFB             GS07F9380G     F04626-98-F-A293                   21,555      29,193




*
    Action represents exchange of equipment. No contract existed.

                                                    14
                                                                            Free       Strength     Contract
               Installation              GSA No.       Contract No.       Weights    Equipment        Value
               Wright Patterson AFB      GS07F9648G    F33601-98-F-A075                   33,252       33,252
                                         GS07F9211G    F33601-99-F-A946     19,508                     38,806
                                         GS07F9211G    F33601-99-F-A638                   11,610       29,805
Marine Corps   Marine Corps              GS07F9380G    M00027-98-F-0091                   56,767       70,374
               Headquarters

                                 Total                                    $152,036     $1,942,772   $3,832,733




                                                      15
Appendix C. Qualifying Countries Listed in
            DFARS 225.872
   The Buy American Act and Balance of Payments Program does not apply to the
   acquisition of Defense equipment that is mined, produced, or manufactured in any
   of the qualify countries listed below.

                                Qualifying Countries
          Australia                          Belgium
          Canada                             Denmark
          Egypt                              Federal Republic of Germany
          France                             Greece
          Israel                             Italy
          Luxembourg                         Netherlands
          Norway                             Portugal
          Spain                              Turkey
          United Kingdom of Britain and Northern Ireland

   The acquisition of products manufactured in the following qualifying countries
   may be exempted from the Buy American Act and Balance of Payment Program
   on a purchase-by-purchase basis.

                                Qualifying Countries

          Austria
          Finland
          Sweden
          Switzerland




                                      16
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Procurement
Under Secretary of Defense (Comptroller/Chief Financial Officer)

Department of the Army
Auditor General, Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on National Security, Committee on Appropriations
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information and Technology,
  Committee on Government Reform and Oversight
House Subcommittee on National Security, International Affairs, and Criminal Justice,
  Committee on Government Reform and Oversight
House Committee on National Security




                                          17
Department of the Army Comments




                 19
20
Department of the Air Force Comments




                        21
22
23
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing, DoD, produced this report. Personnel of the Office of the Inspector,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Garold E. Stephenson
Eric B. Edwards
Harvey I. Gates
George A. Ford
LaVerne M. Hunter
Janice S. Alston
